               A Corporate Strategy Is Key to Addressing the
                    Growing Challenge of Identity Theft

                                       July 2005

                        Reference Number: 2005-40-106




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.


Freedom of Information Act (FOIA) Redaction Legend:
FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, prohibits the disclosure of
return and return information unless authorized.
FOIA exemption (b)(7)(C) permits an agency to withhold information that could
reasonably be expected to constitute an unwarranted invasion of a third party’s or parties’
personal privacy.
FOIA exemption (b)(7)(E) permits an agency to withhold information that could disclose
techniques and/or procedures used in law enforcement investigations and release of such
information could reasonably be expected to circumvent the law.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       July 22, 2005


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT


      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT                       Final Audit Report - A Corporate Strategy Is Key to
                                    Addressing the Growing Challenge of Identity Theft
                                    (Audit # 200440043)


      This report presents the results of our review to determine whether the Internal
      Revenue Service (IRS) has an effective process to educate and assist taxpayers that
      are victims of identity theft.
      Identity theft is one of the fastest growing crimes in the United States (U.S.). It occurs
      when someone uses another individual’s personal information, such as his or her name,
      Social Security Number (SSN), credit card number, or other identifying information,
      without permission, to commit fraud or other crimes. People whose identities have been
      stolen can spend months or years and considerable money repairing the harm identity
      thieves have done to their good names and credit records. The reports of fraudulent tax
      returns as a percentage of the type of fraud committed by identity thieves almost
      doubled from Calendar Years 2002 (1.9 percent) to 2003 (3.7 percent).1
      There are two primary types of identity theft that relate to tax administration. The first
      type involves an individual using another person’s identity (name and SSN) to file a
      fraudulent tax return to steal a tax refund. The second type involves using another
      person’s identity (name, SSN, or both) to obtain employment. This frequently involves
      undocumented workers.2



      1
       Information reported on the Federal Trade Commission web site at consumer.gov/idtheft/.
      2
       For purposes of this report, the term undocumented workers includes (1) workers that legally reside in the U.S. but
      do not have authorization to work in the U.S. and (2) workers that reside in the U.S. without authorization to either
      work or reside in the U.S.
                                            2

The IRS recognizes the growing challenge of identity theft and its effect on tax
administration. Existing processes and functions already deal with aspects of identity
theft. For example, the IRS conducts routine verifications when processing tax returns
and conducting compliance checks that may identify instances of potential identity theft.
In addition, depending on the specifics of a potential identity theft issue, the tax
return/case may be forwarded to various IRS functions for additional actions.
Furthermore, the IRS has recently designated a senior executive to head an Identity
Theft Task Force, a key goal of which is to develop an Enterprise Identity Theft
Strategy. During the course of this review, we discussed various concerns with
IRS management. In response, the IRS has begun to address some of these concerns
as part of its Identity Theft Task Force.
However, the IRS currently has no corporate strategy to address identity theft issues.
It does not have a consistent process to educate and assist taxpayers and does not
always take additional actions to deal with the individuals that have used another’s
name and/or SSN to file fraudulent tax returns or obtain employment. In addition, the
IRS does not have comprehensive or centralized data on identity theft and as a result is
unable to determine the effect identity theft has on tax administration. Until the IRS
develops an agency-wide strategy, it will be unable to help taxpayers and the Federal
Government combat the growing threat of identity theft and assist criminal law
enforcement’s efforts to prosecute offenders.
We recognize that identity theft presents significant challenges to Federal and State
Governments. We understand the unique and significant challenges the IRS faces
when dealing with issues of identity theft and tax administration. To meet these
challenges and balance customer service with enforcement, we recommended the
Deputy Commissioner for Services and Enforcement (1) ensure agency-wide
communication tools are updated to include information about identity theft, (2) ensure
information provided by the IRS to taxpayers or for use by other Federal Government
agencies when referring individuals to the IRS is complete and accurate, (3) develop
agency-wide standards to ensure consistency when requiring taxpayers to substantiate
claims and when allowing taxpayers future exemptions and credits, (4) develop specific
closing codes for cases involving identity theft, and (5) develop an Enterprise Identity
Theft Strategy that includes processes to proactively identify instances of identity theft
and to resolve identification number discrepancies, while protecting tax revenue and
enforcing the law.
Management’s Response: The IRS agreed with our recommendations and has
developed an Enterprise Identity Theft Strategy. A primary component of this Strategy
is outreach, and the IRS has made substantial progress in developing communication
vehicles and making them available to the public. Specifically, the IRS has established
a web site on IRS.gov and provided updated information and contacts to the
Federal Trade Commission. It has also updated correspondence used to communicate
with identity theft victims, finalized a plan to update major publications, and updated
correspondence used to provide information to taxpayers who have duplicate returns.
                                              3

The IRS has established the Multi-Agency Identity Theft Working Group and initiated a
multiagency panel discussion with representatives from the Social Security
Administration and the Department of the Treasury. A key feature of its Victim
Assistance Strategy is to develop consistency among processes to ensure taxpayers
receive equitable treatment. The IRS has modernized its process to dramatically
reduce the time needed to resolve cases, thus reducing the need to suspend refunds or
credits while cases are being resolved.
The IRS developed standards for documentation to be used to validate the identity of
the taxpayer, the taxpayer’s address, and the fact of the theft in cases of identity theft.
The documentation required by the IRS is consistent with that required by the Federal
Trade Commission and the Social Security Administration.
The IRS has refined its closing codes to include identity theft. The Identity Theft
Program Office will accumulate these data from the IRS and other sources, such as the
Federal Trade Commission, to determine trends. These trends will be used to develop
or enhance outreach activities and communication vehicles and to focus resources on
enforcement initiatives.
Prevention is the final part of the IRS Enterprise Identity Theft Strategy. The Strategy
outlines several options for initiatives targeted at preventing or deterring identity theft.
These activities will be monitored and coordinated through the Identity Theft Program
Office.
The IRS did not agree with the amount of the first outcome measure (a potential
$8.5 million in inefficient use of resources), stating it should be revised from $8.5 million
to $676,000 because the IRS believes we made an incorrect assumption. The IRS also
did not agree with the second outcome measure (a potential $9 billion in increased
revenue over 5 years), stating it was based on a recommendation in the report to
expand a current IRS tax withholding compliance program. Management’s complete
response to the draft report is included as Appendix V.
Office of Audit Comment: We disagree with the IRS’ assertion that the outcome
measure should be revised from $8.5 million to $676,000. In addition, we did not
recommend the IRS expand a current tax withholding compliance project; therefore, the
second outcome measure is not directly related to the IRS’ current tax withholding
compliance program.
Outcome Measure One: Management stated that, in five of eight cases we reviewed,
the IRS Individual Taxpayer Identification Number (ITIN) on the tax return was also
used as the Taxpayer Identification Number (TIN) on the associated Wage and Tax
Statement (Form W-2). We agree that for the five cases there was a match between
the ITIN used on the tax return and the TIN used on the Form W-2 and, in the situation
where an ITIN was used on both the tax return and the Form W-2, no identity theft
victim would result. However, for the remaining three cases, the ITINs on the tax
returns did not match the TINs on the associated Forms W-2. For these three cases,
the associated Forms W-2 contained SSNs.
                                              4

The figures supporting our outcome measure did not include situations relating to the
five cases. The figures included in our report involved only those occurrences in which
an ITIN was used to file a tax return that claimed wages and no corresponding
Form W-2 was located with this ITIN. Therefore, the assumption is wages were earned
and reported under another TIN. If the characteristics relative to the underreporting
meet the Automated Underreporter (AUR) Program criteria, these cases could be
selected and ultimately closed as identity theft. This would result in the inefficient use of
resources. The IRS has the ability to proactively eliminate these cases from AUR
Program inventory if it captured this information. Taking this action would be in line with
its Enterprise Identity Theft Strategy of balancing service with enforcement by focusing
on victim assistance, outreach, and prevention.
Outcome Measure Two: Although our outcome measure is calculated using the same
withholding rate used in the IRS’ tax withholding compliance program, in neither our
report nor discussions with management did we recommend the IRS expand its current
tax withholding compliance project [W-4 withholding compliance program]. As our
report states, we believe Form W-2 mismatches provide yet another data source for the
IRS to analyze and begin to measure the impact that identity theft has on tax
administration. The mismatch file could be used by the IRS to develop compliance
initiatives to address the identification number mismatches and to protect any tax
revenue associated. We recognize that working these cases on a case-by-case basis is
probably not cost effective. However, analyzing the data to develop initiatives may
result in both resolving the mismatches and protecting tax revenue.
Further, management indicates that the recommendation focuses limited compliance
resources on a low-income population and that the outcome measure calculates tax
withholding, not tax liability. Management indicated it is likely that the $9 billion withheld
on low-income taxpayers would be refunded. We have recognized (as footnoted in
Appendix IV) that individuals’ actual tax liabilities could be different once they file tax
returns. The actual tax liabilities could be more or less than the amounts withheld
based on the exemptions, credits, and deductions the individuals claim on their tax
returns. However, until the individuals file tax returns, the actual tax liabilities are
unknown to us as well as to the IRS.
We continue to recommend the IRS Enterprise Identity Theft Strategy include
processes to begin to resolve the identification number discrepancies that totaled
7.9 million for Forms W-2 in Tax Year 2002. The IRS does not currently have a
program that attempts to resolve the 7.9 million identification number mismatches or
enforce tax laws relating to withholding and filing issues.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
    A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                  Table of Contents


Background ............................................................................................... Page 1
Current Processes Help Address Identity Theft Issues ............................. Page 7
The Internal Revenue Service Does Not Currently Have a
Corporate Strategy to Address Identity Theft Issues ................................. Page 9
         Recommendation 1: .......................................................................Page 12
         Recommendation 2: .......................................................................Page 13
         Recommendation 3: .......................................................................Page 14
         Recommendation 4: ......................................................................Page 19
         Recommendation 5: .......................................................................Page 20

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 22
Appendix II – Major Contributors to This Report ....................................... Page 24
Appendix III – Report Distribution List ....................................................... Page 25
Appendix IV – Outcome Measures............................................................ Page 26
Appendix V – Management’s Response to the Draft Report ..................... Page 30
    A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                  The Social Security Administration (SSA) and law
Background
                                  enforcement officials cite identity theft as one of the fastest
                                  growing crimes in the United States (U.S.). The 1990s
                                  spawned a new variety of criminal called identity thieves.
                                  Identity theft occurs when someone uses another
                                  individual’s personal information, such as his or her name,
                                  Social Security Number (SSN), credit card number, or other
                                  identifying information, without permission, to commit
                                  fraud or other crimes. Once identity thieves have an
                                  individual’s personal information, they can open new credit
                                  card accounts. They can also file a fraudulent tax return to
                                  obtain an illegal tax credit or refund.
                                  People whose identities have been stolen can spend months
                                  or years and considerable money repairing the harm identity
                                  thieves have done to their good names and credit records.
                                  In the meantime, victims may lose job opportunities; be
                                  refused loans, education, housing, or cars; or may even be
                                  arrested for crimes they did not commit.
                                  Two studies completed in July 2003 by Gartner,
                                  Incorporated, and Harris Interactive1 reported that there
                                                                 were approximately 7 million
                                                                 victims of identity theft in the prior
                                                                 12 months. That equaled an
                                                                 average of 19,178 victims per day.
                                                                 For Calendar Year (CY) 2003, the
                                                                 majority of identity theft victims
                                                                 reported losses due to credit card
                                    Fraudulent tax returns filed fraud (33 percent). Although only a
                                     by identity thieves have
                                    grown from 1.9 percent in    small percentage of the total
                                    CY 2002 to 3.7 percent in    reported identity thefts related to
                                            CY 2003.             fraudulent tax returns, the Federal
                                  Trade Commission (FTC) reported that the percentage of
                                  fraudulent tax returns filed by identity thieves almost
                                  doubled from CYs 2002 to 2003.2




                                  1
                                    Gartner, Incorporated, is a research and advisory firm that helps clients
                                  understand technology and drive business growth. Harris Interactive is
                                  a worldwide market research and consulting firm best known for The
                                  Harris Poll® and its pioneering use of the Internet to conduct
                                  scientifically accurate market research.
                                  2
                                    Information reported on the FTC web site at consumer.gov/idtheft/.
                                                                                                     Page 1
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              Federal laws have been enacted making identity theft
                              a crime
                              In October 1998, the Identity Theft and Assumption
                              Deterrence Act3 made identity theft a crime. The law
                              defines identity theft as when someone “knowingly transfers
                              or uses, without lawful authority, a means of identification
                              of another person with the intent to commit, or to aid or
                              abet, any unlawful activity that constitutes a violation of
                              federal law, or that constitutes a felony under any applicable
                              state or local law.” Violations of the law are investigated by
                              Federal law enforcement agencies, including the U.S. Secret
                              Service, the Federal Bureau of Investigation, the U.S. Postal
                              Inspection Service, the SSA Office of the Inspector General,
                              and the Internal Revenue Service (IRS) Criminal
                              Investigation (CI) Division.
                              Two additional laws reinforce the importance of identity
                              theft. The Fair and Accurate Transactions Act,4 signed into
                              law in December 2003, establishes a national system of
                              fraud detection so victims can alert all three major credit
                              bureaus with a single telephone call. The Identity Theft
                              Penalty Enhancement Act5 was signed into law in July 2004
                              and adds an extra 2 years to a prison sentence if a criminal
                              knowingly transfers, possesses, or uses, without lawful
                              authority, a means of identification of another person in
                              addition to committing another offense. An additional
                              5 years will be added to a sentence related to a terrorism
                              offense if identity theft is involved.
                              The FTC is the Federal Government agency responsible
                              for compiling identity theft complaint information
                              The FTC has been established as the Federal Government’s
                              central repository for identity theft complaints. It provides
                              victim assistance and consumer education. Although the
                              FTC does not have the authority to bring criminal cases
                              against identity thieves, it helps victims of identity theft by
                              providing the victims with educational information in print,
                              through its toll-free hotline, and on its web site,

                              3
                                Pub. L. No. 105-318, 112 Stat. 3007-3012 (codified in part at
                              18 U.S.C. § 1028).
                              4
                                Pub. L. No. 108-159, 111 Stat. 1952.
                              5
                                Pub. L. No. 108-275, 118 Stat. 831 (codified as amended in scattered
                              sections of 18 U.S.C.).
                                                                                              Page 2
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              consumer.gov/idtheft/. The FTC’s goal is to provide
                              information to assist victims in resolving problems that can
                              result from identity theft. The web site and hotline give
                              individuals a single place to report identity theft to the
                              Federal Government and receive helpful information.
                              Counselors at the FTC take complaints and advise
                              individuals on how to deal with the problems that can result
                              from identity theft. In addition, the FTC, in conjunction
                              with other organizations, has developed the ID Theft
                              Affidavit to help victims of identity theft restore their good
                              names. The Affidavit can be used to report information to
                              many organizations.
                              The FTC also serves as a central point for law enforcement
                              agencies nationwide to research identity theft cases. The
                              FTC enters complaints into a secure database, the Identity
                              Theft Data Clearinghouse.6 The database contains
                              identifying information of the victim, such as name, address,
                              SSN, and date of birth. The database also includes the type
                              of identity theft; a description of the complaint; details of
                              the identity theft (dates and the amount of money involved);
                              other problems incurred by the victim as a result of the
                              identity theft; identifying information on the identity thief, if
                              known; and any companies or credit bureaus creating
                              identity theft problems for the victim.
                              Access to this database is limited to law enforcement
                              authorities to assist them in their investigations. Complaints
                              may also be shared with some private companies, such as
                              credit bureaus and other appropriate entities, to help them in
                              their investigations and victim assistance.
                              The SSN is the most widely used identifier for Federal
                              and State Governments and the private sector
                              An SSN is needed to get a job in the U.S.; to receive Social
                              Security benefits and other Federal Government benefits;
                              and, for most individuals, to file a tax return. Many
                              companies, such as banks and credit card companies, also
                              ask for and use individuals’ SSNs to conduct business.
                              To obtain an SSN for a child at birth, the parent completes
                              an Application for a Social Security Card (Form SS-5). If

                              6
                               The database is maintained on the FTC Consumer Sentinel Network, a
                              secure, encrypted web site for use by law enforcement agencies.
                                                                                          Page 3
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                                          the parent does not apply for the
                                                          SSN at the same time he or she
                                                          applies for the birth certificate,
                                                          the parent will have to provide
                                                          proof of age, identity, and U.S.
                                                          citizenship for the child and proof
                                   SSNs are limited to    of the parent’s identity.
                                   U.S. citizens or legal
                                  aliens admitted to the
                                                          Examples of these documents are
                                   U.S. for permanent     a driver’s license, passport,
                                  residence under other   employer identification card,
                                       immigration        school identification card,
                                  categories authorizing  marriage or divorce record, health
                                    U.S. employment.
                                                          insurance card, military
                              identification card, adoption record, or life insurance policy.
                              The Internal Revenue Code requires the SSN to be used
                              as an identifying number
                              The Internal Revenue Code provides that any person filing a
                              tax return, statement, or other document shall include an
                              identifying number for securing proper identification for this
                              purpose. The SSN shall be used as the identifying number
                              for individuals for this purpose, except as otherwise
                              specified under regulations.
                              In 1996, Treasury Regulations were issued to create an IRS
                              Individual Taxpayer Identification Number (ITIN) that
                              would provide alien individuals an identifying number to
                              use to meet U.S. tax return filing requirements. Treasury
                              Regulations provide that the IRS assign ITINs to resident
                              aliens that cannot obtain an SSN. The ITIN is intended for
                              tax purposes only and creates no inference regarding an
                              alien individual’s right to be legally employed in the U.S. or
                              that individual’s immigration status (i.e., the ITIN does not
                              authorize a foreign individual to work or live in the U.S.).
                              Each year, the SSA receives wage reporting information
                              from employers, including income reported on the Wage
                              and Tax Statement (Form W-2). The SSA processes about
                              240 million Forms W-2 from about 6.5 million employers.
                              These Forms W-2 record the wages earned by about
                              145 million workers annually.




                                                                                      Page 4
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft


                                            The SSA
                                                                                       The SSA
                                         receives wage
                                                                                     processes the
                                            reporting
                                                                                      documents
                                         documents and
                                                                                         and
                                          Forms W-2
                                                                                     Forms W-2.
                                              from
                                           employers.

                                                                                        The SSA
                                                                                        associates
                                                                                      the SSN and
                                                              The SSA forwards         name to the
                                                              the wage reporting          Social
                                                                  documents,             Security
                               The IRS matches the               including the          Account.
                              information to the tax          Forms W-2, to the
                                     returns.                        IRS.

                              The IRS Information Reporting Program (IRP) is used to
                              match taxpayer income and deduction information
                              submitted by third parties to amounts reported on individual
                              income tax returns. The Internal Revenue Code, via the
                              IRP, is the cornerstone of voluntary compliance7 and affects
                              compliance and revenue across every taxpayer and market
                              segment. The IRP helps ensure a high level of compliance
                              by requiring third parties, such as employers, banks,
                              brokerage firms, and others, to file information returns
                              reporting taxpayer income and certain deductions to the
                              IRS.
                              Two primary types of identity theft relate to tax
                              administration
                              The first type involves an individual using another person’s
                              identity (name and SSN) to file a fraudulent tax return to
                              steal a tax refund. The individual committing this type of
                              fraud frequently files the fictitious tax return electronically,
                              early in the filing season.8 The individual whose identity
                              was stolen later files his or her tax return and the IRS


                              7
                                Voluntary compliance is an assumption or principle that taxpayers will
                              comply with tax laws and accurately report their income and deductions.
                              8
                                The filing season is the period from January through mid-April when
                              most individual income tax returns are filed.
                                                                                              Page 5
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              identifies it as a duplicate tax return. When this happens,
                              the IRS freezes the second tax return, including any tax
                              refunds due, and begins a process of corresponding with the
                              individuals involved in the duplicate filing. This requires
                              considerable time and effort by the legitimate taxpayer to
                              prove he or she is a victim of identity theft. The victim’s
                              tax refund, if frozen, will not be issued until the matter is
                              resolved.
                              The second type of identity theft related to tax
                              administration involves using another person’s identity
                              (name, SSN, or both) to obtain employment. This
                              frequently involves undocumented workers.9 The wage
                              information is reported to the SSA by the employer (on the
                              Form W-2) under the stolen identification information.
                              In the case of identity theft, the person who stole the identity
                              may use the SSN of another person but still use his or her
                              own name. When the Form W-2 information is received
                              from the SSA, the IRS performs a match of the SSN and
                              name on the Form W-2 to IRS records. If the SSN and
                              name on the Form W-2 do not match IRS records, the
                              Form W-2 is considered invalid.10
                              The IRS uses the Form W-2 information during the
                              IRP process of matching wages to tax returns. In the case of
                              identity theft, the IRS identifies a mismatch or
                              underreporting of income, when in fact the identity theft
                              victim did not underreport his or her income. If a mismatch
                              is identified, the IRS will issue a notice to the individual
                              involved in the mismatch (the victim) and propose an
                              assessment of additional taxes owed relating to the
                              underreported wages. The victim must then work with the
                              IRS to resolve the mismatch of wages, including trying to
                              prove that he or she may be a victim of identity theft.
                              This review was performed at the IRS National
                              Headquarters in the Wage and Investment Division
                              Compliance and Accounts Management (AM) functions in


                              9
                                For purposes of this report, the term undocumented workers includes
                              (1) workers that legally reside in the U.S. but do not have authorization
                              to work in the U.S. and (2) workers that reside in the U.S. without
                              authorization to either work or reside in the U.S.
                              10
                                 For the purposes of this report, invalid refers to a mismatch between
                              the SSN and name on the Form W-2 and the IRS records.
                                                                                                Page 6
      A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                    Atlanta, Georgia; the CI Division, Taxpayer Advocate
                                    Service, and FTC offices in Washington, D.C.; the
                                    Andover, Massachusetts, Atlanta, Georgia, and
                                    Brookhaven, New York, Campuses;11 and the SSA office in
                                    Baltimore, Maryland, during the period June 2004 through
                                    January 2005. The audit was conducted in accordance with
                                    Government Auditing Standards. Detailed information on
                                    our audit objective, scope, and methodology is presented in
                                    Appendix I. Major contributors to the report are listed in
                                    Appendix II.
                                    The IRS recognizes the growing challenge of identity theft
Current Processes Help Address
                                    and its effect on tax administration. Existing processes and
Identity Theft Issues
                                    functions already deal with certain aspects of identity theft.
                                    For example, the IRS conducts routine verifications and
                                    checks when processing tax returns and conducting
                                    compliance checks that may identify instances of potential
                                    identity theft. In addition, depending on the specifics of a
                                    potential identity theft issue, the tax return/case may be
                                    forwarded to various IRS functions for additional actions.
                                    The IRS uses individuals’ names and SSNs as the primary
                                    identifiers when performing its routine verifications and
                                    checks. For example:
                                    •    When processing a tax return, the IRS checks its records
                                         to ensure another tax return has not been previously filed
                                         for that tax year using the same primary taxpayer’s SSN
                                         listed on the tax return being processed. This ensures
                                         there is not a duplicate tax return situation.
                                         If the IRS identifies that a tax return was previously
                                         filed under the same primary SSN, the AM function will
                                         attempt to resolve the duplicate tax return situation
                                         internally by researching IRS records to determine if the
                                         taxpayer or the IRS made an error entering the SSN on
                                         the tax return. For example, it might compare the SSN
                                         on the tax return to the one on the attached Form W-2.
                                         If the IRS is unsuccessful in resolving the duplicate tax
                                         return situation, it sends correspondence to both
                                         individuals that used the SSN. This correspondence


                                    11
                                      The campuses are the data processing arm of the IRS. They process
                                    paper and electronic submissions, correct errors, and forward data to the
                                    Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                     Page 7
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                   advises both individuals that duplicate tax returns have
                                   been filed under the same SSN. This might be the first
                                   indication of a potential identity theft for both the IRS
                                   and the taxpayers. The IRS requests specific identifying
                                   documentation from the taxpayers and forwards it to the
                                   SSA, which will attempt to resolve the SSN discrepancy
                                   (i.e., identify which individual is the rightful owner of
                                   the SSN).
                              •    Each year the IRS receives tax documents, called
                                   information returns, which are used to conduct
                                   compliance checks. Information returns include the
                                   Form W-2 as well as other IRS forms used to report, for
                                   example, interest income, miscellaneous income,
                                   gambling winnings, and pensions. Once the IRS
                                   receives the information returns, it performs computer
                                   verifications based on the taxpayers’ SSNs to match the
                                   information reported on the information returns to that
                                   reported on the tax returns.
                                   If income (including wages) reported on an information
                                   return is not included in the income reported on the tax
                                   return, the IRS considers it an underreporter situation. If
                                   there is no tax return filed for the income reported, the
                                   IRS considers it a nonfiler situation or Taxpayer
                                   Delinquency Investigation (TDI).
                                   Depending on specific criteria and resources available,
                                   either the IRS Automated Underreporter (AUR) function
                                   or TDI function12 will work selected underreporter and
                                   nonfiler cases to determine the correct amount of
                                   income that should have been reported. The functions
                                   will issue correspondence to the underreporting taxpayer
                                   asking him or her to resolve the discrepancy. The
                                   taxpayer may respond that the income is not his or her
                                   income.
                              These routine verifications and checks are an integral part of
                              the IRS’ tax administration and may serve as a first
                              indication to the IRS and taxpayers of a potential identity

                              12
                                The TDI function falls under filing and payment compliance in the
                              Wage and Investment Division Compliance function. The TDI function
                              deals with individuals that do not file their tax returns and, based on
                              information received by the IRS, the individuals meet the requirements
                              for having to file tax returns.
                                                                                             Page 8
      A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                    theft. However, neither the duplicate tax return nor
                                    underreporter process is designed to identify and deal with
                                    the issues and challenges of identity theft.
                                    In addition to the IRS functions detailed above, the IRS has
                                    a CI Division that deals with tax schemes that could include
                                    identity theft issues. The CI Division investigates potential
                                    criminal violations of the Internal Revenue Code and related
                                    financial crimes. It has investigative authority and usually
                                    works tax schemes involving multiple taxpayers or
                                    individual cases involving large amounts of taxes/money.
                                    The CI Division has developed a Compliance Strategy to
                                    assist in identifying, developing, and investigating cases that
                                    foster confidence in the tax system and compliance with the
                                    law.
                                    The IRS’ growing awareness of the effect identity theft has
                                    on tax administration has resulted in the IRS recently
                                    designating a senior executive to head an Identity Theft
                                    Task Force, a key goal of which is to develop an Enterprise
                                    Identity Theft Strategy. During the course of this review,
                                    we discussed various concerns with IRS management. In
                                    response, the IRS has begun to address some of these
                                    concerns as part of its Identity Theft Task Force, including
                                    meeting with the SSA in an attempt to reduce the time
                                    needed to determine the owner of an SSN.
                                    The IRS does not have a consistent process to educate and
The Internal Revenue Service
                                    assist taxpayers, and, although the IRS works toward
Does Not Currently Have a
                                    resolving duplicate tax return and underreporting situations,
Corporate Strategy to Address
                                    it does not always take additional actions to deal with the
Identity Theft Issues
                                    individuals that have used another’s name or SSN to file
                                    fraudulent tax returns or obtain employment. In addition,
                                    the IRS does not have comprehensive or centralized data on
                                    identity theft to determine the effect identity theft has on tax
                                    administration.
                                    This happened because the IRS has not developed a
                                    corporate strategy to address the growing significance of
                                    identity theft and its effect on tax administration. Until the
                                    IRS develops an agency-wide strategy, it will be unable to
                                    help taxpayers and the Federal Government combat the
                                    growing threat of identity theft and assist criminal law
                                    enforcement’s efforts to prosecute offenders. Furthermore,
                                    one of the IRS’ strategic goals is to improve taxpayer
                                    service. The IRS will be unable to meet this goal if an
                                                                                             Page 9
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              agency-wide strategy for handling identity theft issues is not
                              developed.
                              In recent years, the IRS has developed a corporate strategy
                              and agency-wide approach to combat another issue that
                              significantly affects tax administration, the Earned Income
                              Tax Credit (EITC). The IRS recognized that numerous
                              functions dealt with different aspects of the EITC, a credit
                              the IRS had identified as having a significant rate of
                              noncompliance. To better understand the causes and
                              develop solutions, the IRS formed a Project Office to
                              develop policy and procedures in an attempt to consistently
                              deal with the issue. The IRS continues to centralize many
                              of the EITC processes.
                              The IRS does not have a consistent process to educate
                              taxpayers
                              Information on identity theft and the problems it presents
                              with tax administration is not available to taxpayers using
                              the communication methods the IRS normally promotes,
                              such as key publications and the IRS Internet site (IRS.gov).
                              Key instructions and publications, including the U.S.
                              Individual Income Tax Return (Form 1040) instruction
                              booklet and Your Federal Income Tax (Publication 17), do
                              not provide taxpayers with information on what they should
                              do if they believe they are victims of identity theft. The IRS
                              also does not use its Internet site or its publications to refer
                              taxpayers to the FTC. However, IRS.gov does provide
                              taxpayers with alerts on tax schemes that involve stolen
                              identities.
                              Information provided by the IRS through its toll-free
                              customer service telephone line, for use by other Federal
                              Government agencies when referring taxpayers to the IRS,
                              and correspondence sent to taxpayers does not adequately
                              provide individuals with the information they need to
                              resolve their issues. For example:
                              •   When taxpayers contact the IRS toll-free telephone line,
                                  no general information is available on what they should
                                  do if they believe they are victims of identity theft. The
                                  information available is limited to only those taxpayers
                                  that call and inquire about what to do if someone has
                                  filed a tax return using their SSN (duplicate tax return
                                  situations). IRS procedures require the telephone
                                                                                      Page 10
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                  assistors to advise taxpayers to contact the FTC.
                                  Although the IRS does not have general information
                                  available through its toll-free telephone number, referral
                                  procedures provided by the IRS to the SSA instruct the
                                  SSA to refer individuals that report an identity theft
                                  involving a tax matter to the IRS toll-free customer
                                  service telephone number.
                              •   When individuals contact the FTC, referral procedures
                                  provided by the IRS instruct the FTC to refer these
                                  individuals to either the Office of the National Taxpayer
                                  Advocate (the IRS Taxpayer Advocate Service (TAS))
                                  or the CI Hotline (the IRS Fraud and Abuse Hotline).
                                  However:
                                  o IRS.gov does not have any general information on
                                    what taxpayers should do if they believe they are
                                    victims of identity theft.
                                  o Officials in the TAS stated that the TAS should not
                                    be a contact for referral, but if the alternative is to
                                    have the taxpayer call the IRS toll-free customer
                                    service telephone number, the TAS would rather
                                    take the call.
                                  o Procedures for the Fraud and Abuse Hotline are
                                    inconsistent. Both sets of CI Division procedures
                                    require that the victim’s information be collected.
                                    However, the first set of procedures requires the
                                    information to be referred to the IRS Exam Identity
                                    Theft Unit, which does not exist. The second set of
                                    procedures requires the Fraud and Abuse Hotline
                                    referrals to be sent to the local CI Division office.
                              Correspondence sent to taxpayers because of IRS
                              verifications and checks contains incomplete or inaccurate
                              information. For example:
                              The AM function sends correspondence to taxpayers
                              involved with a duplicate tax return situation. The
                              correspondence states, “The Form [xx] you filed with us for
                              the tax year ended [xx] shows your social security number
                              as [xx]. Our records show the same social security number
                              belongs to another taxpayer.”
                              However, at the time the correspondence is sent, the IRS
                              does not know which taxpayer owns the SSN used to file
                                                                                     Page 11
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              both tax returns. In addition, subsequent correspondence
                              sent to these taxpayers does not appropriately inform them
                              of all the ramifications of the duplicate tax return situation,
                              (i.e., that, until the situation is resolved, the taxpayers will
                              be unable to receive certain deductions and credits).
                              With the percentage of fraudulent tax returns being filed by
                              identity thieves almost doubling and the effect identity theft
                              has on individuals whose information is stolen, the IRS
                              needs to ensure taxpayers have sufficient information to
                              help resolve their issues. In addition, this information
                              should ensure taxpayers understand the actions the IRS
                              takes when trying to resolve the situation and how it affects
                              them when trying to comply with their future tax
                              obligations.

                              Recommendations

                              The Deputy Commissioner for Services and Enforcement
                              should ensure:
                              1. Agency-wide communication tools used to educate and
                                 assist taxpayers are updated to include information about
                                 identity theft and what to do if taxpayers believe they
                                 are victims of identity theft. This should include
                                 referring taxpayers to the FTC.
                              Management’s Response: The IRS agreed with this
                              recommendation and has developed an Enterprise Identity
                              Theft Strategy. A primary component of this Strategy is
                              outreach that focuses on updating communication and
                              outreach vehicles. The IRS has documented this Strategy in
                              its Identity Theft Communication Plan and made substantial
                              progress in developing these vehicles and making them
                              available to the public.
                              Specifically, the IRS has established a web site on IRS.gov
                              and provided updated information and contacts to the FTC.
                              It has also updated correspondence used to communicate
                              with identity theft victims and finalized a plan to update
                              major publications.
                              Lastly, the IRS has established the Multi-Agency Identity
                              Theft Working Group and initiated a multiagency panel
                              discussion with representatives from the SSA and the
                              Department of the Treasury.
                                                                                       Page 12
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              2. Information provided by the IRS to taxpayers or other
                                 Federal Government agencies when referring individuals
                                 to the IRS is complete and accurate, including
                                 correspondence sent to taxpayers involved in a duplicate
                                 tax return situation.
                              Management’s Response: The IRS agreed with this
                              recommendation. It has updated communication vehicles to
                              include references to the FTC and SSA and will continue to
                              collaborate with the FTC and SSA through the
                              Multi-Agency Identity Theft Working Group on
                              communication and outreach. The IRS has also updated the
                              correspondence used to provide more information to
                              taxpayers who have duplicate returns. Lastly, the IRS has
                              reviewed various procedures regarding fraud referral to
                              ensure they are comprehensive and address identity theft
                              cases.
                              The IRS does not have consistent processes to assist
                              taxpayers that may be victims of identity theft
                              Procedures and processes of the various IRS functions that
                              assist taxpayers that may be victims of identity theft are not
                              consistent. For example:
                              •   The AM function attempts to resolve duplicate SSN
                                  discrepancies (the duplicate tax return situations) to
                                  ensure legitimate tax returns are filed with correct SSNs.
                                  The function requests that taxpayers submit copies of
                                  identifying documents, such as a driver’s license,
                                  passport, or birth certificate. It also asks taxpayers to
                                  provide their place of birth and parents’ names. Once it
                                  receives this information, the AM function forwards the
                                  information to the SSA, which then attempts to
                                  determine which taxpayer owns the SSN.
                                  While the SSA is conducting its research, the IRS
                                  assigns a taxpayer involved with the duplicate tax return
                                  situation a temporary Taxpayer Identification Number
                                  (TIN) to use when filing future tax returns. Because
                                  temporary TINs are not valid SSNs, certain credits and
                                  deductions requiring an SSN will not be allowed,
                                  including the EITC and dependent exemptions.
                              •   The CI Division attempts to resolve duplicate tax return
                                  situations when there are indications of fraud. In
                                  working these cases, the CI Division does not routinely
                                                                                     Page 13
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                  assign a taxpayer a temporary SSN, although it does
                                  assign a temporary SSN when the fraudulent tax return
                                  includes a claim for the EITC. Taxpayers determined to
                                  be the rightful owners of the SSNs can continue to file
                                  tax returns using their SSNs. The CI Division will place
                                  a freeze code on the account of the rightful owner that
                                  enables it to monitor the account in subsequent years
                                  and prevent the issuance of false refunds in the future.
                              •   The AUR and TDI functions focus on the
                                  underreporting or nonreporting of income. Procedures
                                  enable taxpayers to provide support that the income is
                                  not theirs either verbally or in writing. If the taxpayers
                                  claim the income is not theirs, the functions close the
                                  cases without any changes.
                              The National Taxpayer Advocate recognized the
                              inconsistency with which the IRS assists potential victims of
                              identity theft. In the National Taxpayer Advocate 2004
                              Annual Report to Congress, the Advocate lists the
                              inconsistency of procedures in IRS functions nationwide as
                              one of the most serious problems facing taxpayers. The
                              Advocate cited the assistance the IRS provides to victims of
                              identity theft as an example of these inconsistent
                              procedures.
                              The function working the cases affects what information
                              taxpayers are required to provide, as well as what credits
                              and deductions taxpayers can claim while their cases are
                              being resolved. However, the information required to
                              substantiate identity theft should be consistent to ensure
                              equal treatment and appropriate resolution of the identity
                              theft cases.

                              Recommendation

                              The Deputy Commissioner for Services and Enforcement
                              should:
                              3. Develop agency-wide standards to ensure the
                                 information taxpayers are asked to provide to
                                 substantiate claims of identity theft is consistent
                                 throughout the IRS. These standards should also ensure
                                 taxpayers are consistently allowed applicable future
                                 exemptions and credits while identity theft cases are
                                 being resolved.
                                                                                     Page 14
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              Management’s Response: The IRS agreed with this
                              recommendation. A key feature of its Victim Assistance
                              Strategy is to develop consistency among processes to
                              ensure taxpayers receive equitable treatment. Through
                              process reengineering efforts, the IRS has modernized the
                              process to dramatically reduce the time needed to resolve
                              cases as well as ensure consistency. The substantial
                              reduction in case resolution time will also reduce the need to
                              suspend a taxpayer’s refund or credits while the case is
                              being resolved, resulting in treatment consistent with that
                              provided to taxpayer cases in the CI Division.
                              The IRS also developed standards for documentation to be
                              used to validate the identity of the taxpayer, the taxpayer’s
                              address, and the fact of the theft. The documentation
                              required by the IRS is consistent with that required by the
                              FTC and the SSA.
                              The IRS does not have comprehensive or centralized
                              data to measure the effect identity theft has on tax
                              administration
                              Identity theft is not specifically recorded as a category when
                              the IRS works cases that involve potential instances of
                              identity theft. Although the multiple functions that assist in
                              these cases have closing codes that record how cases are
                              resolved, the IRS has not developed specific closing codes
                              to use when cases are resolved based on a claim of identity
                              theft. For example, the AUR function closes cases
                              involving a claim of identity theft by using a code that
                              indicates “case closed – complex issue not pursued.” The
                              TDI function closes these cases using a closing code that
                              indicates “income below filing requirement.”
                              Although these cases include claims of identity theft, a
                              distinction cannot be made between cases closed because of
                              identity theft and cases closed with “complex issue not
                              pursued” or “income below filing requirements” not due to
                              identity theft. Without a consistent method to capture the
                              cases involving identity theft, the IRS does not know how
                              many taxpayers are affected and the extent of the effect on
                              tax administration.
                              Although the IRS does not have comprehensive or
                              consolidated data on identity theft, it does have existing data
                              that can be used to begin to measure the effect of identity
                                                                                     Page 15
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              theft. We analyzed selected data and obtained examples of
                              data in which identity theft appears to be a component. We
                              believe these data could be used to begin to compile
                              management information on identity theft. In addition,
                              these data sources could be used to develop compliance
                              initiatives to address identification number discrepancies
                              and to protect tax revenue associated with these
                              discrepancies. For example:
                              •    A computer-matching program developed by the IRS
                                   identifies tax returns involved in a duplicate tax return
                                   situation with a high probability of being a case in which
                                   two individuals are using the same SSN to file a tax
                                   return. Currently, this program uses characteristics from
                                   the duplicate tax returns. The program identifies
                                   mismatches between secondary SSNs and zip codes
                                   from both tax returns filed for the same SSN and tax
                                   period.
                              •    An analysis of Tax Year (TY) 2002 tax return data
                                   showed 378,418 tax returns filed using ITINs had
                                   income reported from wages; however, there was no
                                   ITIN on a related Form W-2 for these wages. This
                                   could indicate that the ITIN filer is using an identity of
                                   another individual to gain employment. In addition to
                                   the potential burden that may be caused to the
                                   individuals whose identities were used by the ITIN
                                   filers, the IRS could be inefficiently using its limited
                                   compliance resources. For example, if the
                                   378,418 individuals whose SSNs were used were
                                   identified by the AUR function as underreporter cases,
                                   the IRS would needlessly expend approximately
                                   $8.5 million13 in resources to close these cases with no
                                   changes.
                              •    An analysis of TY 2002 Forms W-2 showed 7.9 million
                                   mismatches for which the SSN and name on the
                                   Form W-2 do not match the SSN and name issued by
                                   the SSA (considered an invalid Form W-2). For
                                   example:



                              13
                                The figure is based on the 378,418 ITIN tax returns that do not have
                              an associated Form W-2 with the ITIN and the $22.40 per case it costs
                              the IRS to close an AUR function case.
                                                                                             Page 16
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                       o A retired taxpayer’s SSN was reported on
                                         numerous other individuals’ Forms W-2
                                         presumably used to gain employment. The
                                         wages earned were reported on Forms W-2 under
                                         the SSN of the retired person; however, another
                                         name was used. The Forms W-2 contained wage
                                         earners’ addresses in states different from that of
                                         the retired taxpayer. The wages totaled (b)3;
                                         (b)(7)(C) with tax withholdings of only (b)3;
                                         (b)(7)(C).
                                       o About 9,500 separate companies were identified
                                         as each issuing 100 or more of the Forms W-2 on
                                         which the names did not match the SSNs and
                                         names on file with the SSA. Over 1,000 of the
                                         9,500 companies had discrepancies in 75 percent
                                         or more of their Forms W-2.
                                   Further analysis of the data indicates compliance
                                   problems similar to those identified in a new IRS tax
                                   withholding compliance program initiated in Fiscal
                                   Year 2005.14 Under the guidelines of the new tax
                                   withholding compliance program, the IRS will send
                                   letters to individuals with low withholding and a tax
                                   compliance issue (b)(7)(E)------------------------------------
                                   --------------------------------------------------------------------
                                   --------------------------------------------------------------------
                                   --------- proposing to set their withholding rates at the
                                   percentage withheld for individuals filing as single with
                                   zero exemptions. At the same time, the IRS will send
                                   letters to employers advising them to withhold at the
                                   rate of single with 0 exemptions on a date specified in
                                   the letter (that will be no earlier than 45 days after the
                                   date of the letter) if the IRS does not subsequently
                                   contact them. At any time after receiving the letter,
                                   including before the employer imposes the new
                                   withholding rate, the employee (taxpayer) may be able
                                   to justify to the IRS a filing status and/or a withholding
                                   rate different from that specified in the initial letter.


                              14
                                This program was developed in response to a recommendation made
                              in the Government Accountability Office report entitled, Reliability of
                              Information on Taxpayers Claiming Many Withholding Allowances or
                              Exemption from Federal Income Tax Withholding (GAO-03-913R,
                              dated September 2003).
                                                                                             Page 17
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                   We analyzed the 7.9 million Forms W-2 using criteria
                                   similar to that used in the new IRS tax withholding
                                   compliance program. In addition, we eliminated
                                   Forms W-2 with wages less than $7,950, the income
                                   threshold required for an individual to file a tax return if
                                   filing as single with no dependents.15 We identified:
                                       o A total of 1,086,195 Forms W-2 on which the
                                         SSN was not used to file a TY 2002 tax return.
                                       o A total of $19.7 billion dollars in income and
                                         $287 million in taxes withheld. The average
                                         income and taxes withheld were $18,165 and
                                         $264, respectively.
                                       o Over 355,500 unique companies that issued the
                                         1,086,195 Forms W-2.
                              If the IRS required the individuals listed on the
                              1,086,195 Forms W-2 to withhold at the single withholding
                              rate with 0 exemptions, the potential increase in tax revenue
                              would be about $9 billion16 ($1.8 billion annually over
                              5 years). This assumes an average wage of $18,165 and a
                              10.86 percent withholding rate required for a person filing
                              as single with no dependents.
                              Identity theft presents significant challenges to Federal and
                              State Governments. We understand the unique and
                              significant challenges the IRS faces when dealing with
                              issues of identity theft and tax administration. To meet
                              these challenges and balance customer service with
                              enforcement, the IRS needs to develop a corporate strategy
                              that will proactively identify instances of identity theft and
                              determine the optimum approach to resolving identification
                              number discrepancies and reducing taxpayer burden, while
                              protecting revenue and enforcing the law.




                              15
                                Based on TY 2004 tax information.
                              16
                                The individuals’ actual tax liabilities could be different once they file
                              their tax returns. The actual tax liabilities could be more or less than the
                              amounts withheld based on the exemptions, credits, and deductions the
                              individuals claim on their tax returns.
                                                                                                Page 18
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              Recommendations

                              The Deputy Commissioner for Services and Enforcement
                              should:
                              4. Develop specific closing codes for cases involving
                                 identity theft that will allow the IRS to track and
                                 monitor the effect of identity theft on tax administration.
                              Management’s Response: The IRS agreed with this
                              recommendation. The IRS has refined its AUR and TDI
                              function closing codes to include identity theft. The Identity
                              Theft Program Office will accumulate these data from the
                              IRS and other sources, such as the FTC, to determine trends.
                              These trends will be used to develop or enhance outreach
                              activities and communication vehicles and to focus
                              resources on enforcement initiatives.
                              The IRS did not agree with the amount of the first outcome
                              measure (a potential $8.5 million in inefficient use of
                              resources), stating it should be revised from $8.5 million to
                              $676,000 because the IRS believes we made an incorrect
                              assumption.
                              Office of Audit Comment: We disagree with the IRS’
                              assertion that the outcome measure should be revised from
                              $8.5 million to $676,000. Management stated that, in five
                              of eight cases we reviewed, the ITIN on the tax return was
                              also used as the TIN on the associated Form W-2. We agree
                              that for the five cases there was a match between the ITIN
                              used on the tax return and the TIN used on the Form W-2
                              and, in the situation where an ITIN was used on both the tax
                              return and the Form W-2, no identity theft victim would
                              result. However, for the remaining three cases, the ITINs on
                              the tax returns did not match the TINs on the associated
                              Forms W-2. For these three cases, the associated
                              Forms W-2 contained SSNs.
                              The figures supporting our outcome measure did not include
                              situations relating to the five cases. The figures included in
                              our report involved only those occurrences in which an ITIN
                              was used to file a tax return that claimed wages and no
                              corresponding Form W-2 was located with this ITIN.
                              Therefore, the assumption is wages were earned and
                              reported under another TIN. If the characteristics relative to
                              the underreporting meet the AUR Program criteria, these
                                                                                    Page 19
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              cases could be selected and ultimately closed as identity
                              theft. This would result in the inefficient use of resources.
                              The IRS has the ability to proactively eliminate these cases
                              from AUR Program inventory if it captured this
                              information. Taking this action would be in line with its
                              Enterprise Identity Theft Strategy of balancing service with
                              enforcement by focusing on victim assistance, outreach, and
                              prevention.
                              5. Follow through on the Identity Theft Task Force’s goal
                                 of developing an Enterprise Identity Theft Strategy. The
                                 Strategy should include processes to proactively identify
                                 instances of identity theft, resolve identification number
                                 discrepancies, and ensure appropriate tax withholding
                                 while enforcing the law.
                              Management’s Response: The IRS agreed with this
                              recommendation. Prevention is the final part of the IRS
                              Enterprise Identity Theft Strategy. The Strategy outlines
                              several options for initiatives targeted at preventing or
                              deterring identity theft. These activities will be monitored
                              and coordinated through the Identity Theft Program Office.
                              For example, the IRS will work with employers through
                              several initiatives to reduce the incidence of theft related to
                              employment, and tax return preparers who promote schemes
                              for clients to make false claims of identity theft to
                              underreport income and maximize refundable credits will
                              face penalties and sanctions.
                              The IRS did not agree with the second outcome measure
                              (a potential $9 billion in increased revenue over 5 years),
                              stating it was based on a recommendation in the report to
                              expand a current IRS tax withholding compliance program.
                              Office of Audit Comment: Although our outcome measure
                              is calculated using the same withholding rate used in the
                              IRS’ tax withholding compliance program, in neither our
                              report nor discussions with management did we recommend
                              the IRS expand its current tax withholding compliance
                              program [Form W-4 withholding compliance program]. As
                              our report states, we believe Form W-2 mismatches provide
                              yet another data source for the IRS to analyze and begin to
                              measure the impact that identity theft has on tax
                              administration. The mismatch file could be used by the IRS
                              to develop compliance initiatives to address the
                                                                                     Page 20
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                              identification number mismatches and to protect any tax
                              revenue associated. We recognize that working these cases
                              on a case-by-case basis is probably not cost effective.
                              However, analyzing the data to develop initiatives may
                              result in both resolving the mismatches and protecting tax
                              revenue.
                              Further, management indicates that the recommendation
                              focuses limited compliance resources on a low-income
                              population and that the outcome measure calculates tax
                              withholding, not tax liability. Management indicated it is
                              likely that the $9 billion withheld on low-income taxpayers
                              would be refunded. We have recognized (as footnoted in
                              Appendix IV) that individuals’ actual tax liabilities could be
                              different once they file tax returns. The actual tax liabilities
                              could be more or less than the amounts withheld based on
                              the exemptions, credits, and deductions the individuals
                              claim on their tax returns. However, until the individuals
                              file tax returns, the actual tax liabilities are unknown to us
                              as well as to the IRS.
                              We continue to recommend the IRS Enterprise Identity
                              Theft Strategy include processes to begin to resolve the
                              identification number discrepancies that totaled 7.9 million
                              for Forms W-2 in TY 2002. The IRS does not currently
                              have a program that attempts to resolve the 7.9 million
                              identification number mismatches or enforce tax laws
                              relating to withholding and filing issues.




                                                                                      Page 21
       A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                                                                        Appendix I


                        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has an effective process to educate and assist taxpayers that are victims of identity theft.
To accomplish this objective, we:
I.       Determined whether the IRS educates taxpayers that are victims of identity theft on the
         process to resolve their tax accounts.
         A. Discussed with the appropriate officials how the IRS educates taxpayers on the
            process to resolve their tax accounts when they are victims of identity theft.
         B. Obtained and reviewed key communication vehicles to determine how the IRS
            educates taxpayers about its process for handling identity theft cases.
II.      Determined whether the IRS has an effective process to resolve taxpayer accounts when
         identity theft has occurred.
         A. Determined whether the IRS has a process to assist taxpayers whose identities are
            stolen for the purpose of obtaining employment or filing false tax returns.
         B. Determined whether State tax agencies may have a process that can be used by the
            IRS as a best practice when assisting taxpayers that are victims of identity theft.
         C. Determined whether the IRS has a management information system that captures
            information on identity theft cases.
         D. Determined whether the IRS can implement a proactive process to assist taxpayers
            that are victims of identity theft.
III.     Determined the potential amount of inefficient use of resources and increased revenue.
         A. Determined the potential amount of inefficient use of resources from identity theft
            cases not being worked by the Automated Underreporter function. The Automated
            Underreporter function works cases that show an underreporting of income. The
            cases are a result of a match of the income reported by taxpayers on their tax returns
            to third-party information received by the IRS. See methodology in Appendix IV.




                                                                                             Page 22
       A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

           B. Determined the number of instances with an invalid Wage and Tax Statement
              (Form W-2) (Social Security Number and name do not match IRS records) for which
              there is no corresponding tax return for Tax Year 2002,1 the wages are below what
              would be included in the IRS Compliance Program and above the filing requirement,
              and the Form W-2 had a low withholding rate.




1
    Tax Year 2002 is the most recent year for which complete data were available.


                                                                                        Page 23
    A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell P. Martin, Audit Manager
Pamela DeSimone, Lead Auditor
Patricia Jackson, Auditor
Mary Keyes, Auditor
Jeffrey Williams, Information Technology Specialist




                                                                                         Page 24
   A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                                                              Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Criminal Investigation SE:CI
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Business Systems Planning, Wage and Investment Division SE:W:BSP
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Refund Crimes, Small Business/Self-Employed Division SE:CI:RC
Acting Director, Strategy and Finance, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Acting Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 25
       A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                                                                                  Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•      Inefficient Use of Resources – Potential; $8.5 million (see page 9).
Methodology Used to Measure the Reported Benefit:
An analysis of Tax Year (TY) 2002 tax return data1 showed 378,418 tax returns filed using
Internal Revenue Service (IRS) Individual Taxpayer Identification Numbers (ITIN)2 had income
reported from wages; however, there were no ITINs on a related Wage and Tax Statement
(Form W-2) for these wages. This could be an indicator that the ITIN filer is using the identity
of another individual to gain employment. In addition to the potential burden that may be caused
to an individual whose identity was used by the ITIN filer, the IRS could be inefficiently using
its limited compliance resources to unnecessarily work underreporter cases. If the
378,418 individuals whose Social Security Numbers (SSN) were used were identified by the
Automated Underreporter (AUR) function3 as underreporter cases, the IRS would needlessly
spend approximately $8.5 million4 in resources to close these cases with no changes. This was
calculated as follows:
                Calculation of Total Salaries for AUR Function Employees for Fiscal Year 2004
    Permanent salaries                                                                                 $27,165,343
    Temporary salaries                                                                                 $11,820,606
    Overtime                                                                                            $2,066,222
    Night differential                                                                                    $652,053
    Premium dollars                                                                                            $784
    Total salaries                                                                                     $41,705,008




1
  TY 2002 is the most recent year for which complete data were available.
2
  In 1996, Treasury Regulations were issued to provide IRS identifying numbers for alien individuals to use to meet
United States tax return filing requirements. Treasury Regulations provide that the IRS assign ITINs to resident
aliens that cannot obtain a Social Security Number.
3
  The AUR function works cases that show an underreporting of income. The cases are a result of a match of the
income reported by taxpayers on their tax returns to third-party information received by the IRS.
4
  The figure is based on the 378,418 ITIN tax returns that do not have an associated Form W-2 with the ITIN and the
$22.40 per case it costs the IRS to close an AUR function case.
                                                                                                          Page 26
       A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                           Calculation of Average Salary for AUR Function Employees
    Total permanent, temporary, overtime, night differential, and premium dollars                              $41,705,008
                                        5
    Total Full-Time Equivalents (FTE)                                                                                   819
    Average salary (total salaries/FTEs)                                                                           $50,922



                                Calculation of Time to Close an AUR Function Case
    Minutes in a work year (2,096 hours x 60 minutes)                                                              125,760
    Cases closed in Fiscal Year 2004                                                                                  2,257
    Time to close an AUR function case (minutes in a work year/cases closed)                                    56 minutes



                                Calculation of Cost to Close an AUR Function Case
    Average salary                                                                                                 $50,922
    Minutes in a work year                                                                                         125,760
    Cost per minute (average salary/minutes in a work year)                                                            $.40
    Minutes to work/close an AUR function case                                                                              56
    Cost to close an AUR function case ($.40 per minute x 56 minutes to work)                                        $22.40



                                       Calculation of Inefficient Use of Resources
    Cost to close an AUR function case                                                                               $22.40
    ITIN tax returns with wages and no associated Form W-2                                                         378,418
    Inefficient use of resources if these cases did not go to the AUR function                                 $8.5 million


Type and Value of Outcome Measure:
•      Increased Revenue – Potential; $9 billion6 ($1.8 billion annually over 5 years) (see page 9).
Methodology Used to Measure the Reported Benefit:
We analyzed 7.9 million Forms W-2 using criteria similar to that in a new tax withholding
compliance program the IRS is initiating in Fiscal Year 2005. We eliminated from our results
Forms W-2 that meet the dollar tolerance for inclusion in this new compliance program. We also
eliminated the Forms W-2 with earnings less than $7,950, the income threshold required for an

5
  An FTE is a measure of labor hours in which 1 FTE is equal to 8 hours multiplied by the number of compensable
days in a particular fiscal year. For the calculation of our outcome, 1 FTE was equal to 2,096 staff hours.
6
  The individuals’ actual tax liabilities could be different once they file their tax returns. The actual tax liabilities
could be more or less than the amounts withheld based on the exemptions, credits, and deductions the individuals
claim on their tax returns.
                                                                                                                 Page 27
       A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

individual if the filing status is single with no dependents.7 In addition, we eliminated any
individuals who filed a tax return for TY 2002. Our analysis identified:
       •   A total of 1,086,195 Forms W-2 on which the SSN was not used to file a TY 2002 tax
           return.
       •   Wages earned averaged $18,165, with taxes withheld averaging $264.
       •   If the IRS required the individuals in the above population to withhold at the single
           withholding rate with 0 exemptions,8 using the average wages of $18,165, individuals
           would be required to have 10.86 percent of their wages withheld. This would result in a
           potential $1.8 billion in increased tax being withheld.
The following is the calculation for the increased revenue:
        Calculation of Invalid9 Forms W-2 (Grouped by the SSN) (b) (7)(E)------------------------------,
         Wages Between $7,950 and the IRS Withholding Compliance Program Dollar Tolerance,
                                        and No Tax Return Filed
    Total invalid Forms W-2 (wages between $7,950 and the IRS withholding compliance                         1,822,995
    program dollar tolerance)
    Number of SSNs from invalid Forms W-2 used to file a tax return as the Primary taxpayer                    391,701
    Number of SSNs from invalid Forms W-2 used to file a tax return as the Secondary taxpayer                 151,34010
    Total invalid Forms W-2 ((b)(7)(E)--------------------------- and wages between $7,950                   1,511,220
    and the IRS withholding compliance program dollar tolerance)
    Number of invalid Forms W-2 on which the SSN was not used to file a TY 2002 tax return                   1,086,195
    Average wages                                                                                              $18,165
    Average withholding                                                                                           $264
    Total wages                                                                                           $19.7 billion
    Total withholding                                                                                     $287 million




7
  Based on TY 2004 tax information.
8
  Under the guidelines of the new tax withholding compliance program, the IRS will send letters to the individuals
proposing to set their withholding rates at the percentage withheld for individuals filing as single with zero
exemptions. At the same time, the IRS will send letters to the employers advising them to withhold at the rate of
single with 0 exemptions on a date specified in the letter (that will be no earlier than 45 days after the date of the
letter) if the IRS does not subsequently contact them.
9
  For the purposes of this report, invalid refers to a mismatch between the SSN and name on the Form W-2 and the
IRS records.
10
   The 391,701 and 151,340 SSNs are based on a match of the 1.8 million invalid Forms W-2 with wages between
$7,950 and the IRS tax withholding compliance program dollar tolerance and the IRS’ 2002 tax return file. These
files were then matched to the 1.5 million invalid Forms W-2 that had (b)(7)(E)-------------------------.
                                                                                                               Page 28
       A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

             Calculation of Increased Revenue for Invalid Forms W-2 (Grouped by the SSN)
        (b)(7)(E)---------------------------------------, Wages Between $7,950 and the IRS Withholding
                     Compliance Program Dollar Tolerance, and No Tax Return Filed
 Total wages                                                                                        $19.7 billion
 Single with 0 exemptions withholding rate for average wages of $18,165                           10.86 percent11
 Total withholding for single with zero exemptions withholding rate                                   $2.1 billion
 Actual withholding on the 1,086,195 invalid Forms W-2 that were not used to file a                 $287 million
 TY 2002 tax return
 Additional withholding for single with zero exemptions withholding rate                              $1.8 billion
 Projection over 5 years                                                                               $9 billion




11
     Based on the percentage method of withholding for wages paid on a weekly basis through December 2004.
                                                                                                        Page 29
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft

                                                                       Appendix V


                Management’s Response to the Draft Report




                                                                             Page 30
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 31
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 32
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 33
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 34
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 35
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 36
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 37
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 38
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 39
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 40
A Corporate Strategy Is Key to Addressing the Growing Challenge of Identity Theft




                                                                             Page 41
